IN THE SUPREME COURT OF THE
UNITED STATES OF AMERICA
SHERWOOD L. BOSTIC,
Petitioner,

-7367

Case No.:
v.
Supreme Court, U.S.
FILED

JAN 2 2 2021

STATE OF FLORIDA,
Respondent.

OFFICE OF THE CLERK

ON PETITION FOR WRIT OF CERTIORARI FROM
THE UNITED STATES COURT OF APPEALS OF
__________ THE ELEVENTH CIRCUIT

Sherwood L. Bostic, # 288203
Madison Correctional Institution
382 SW MCI Way
Madison, FL 32340-4430

RECEIVED !
MAR - 8 2021
I

QUESTION PRESFNTFn
I.

did the u.s. circuit court of appeal ERR WHEN IT DENIED (COA)
STATUS ON THE POINT RAISED THAT

THE U.S. DISTRICT COURT ERRED

WHEN IT SUSTAINED THAT PETITIONER

HAS NO CONSTITUTIONAL RIGHT

TO COUNSEL IN HIS STATE POST CONVICTION EVIDENTIARY HEARING.
LIST OF PARTTFS
A.

Trial defense counsel; Janies Forrest (APD).

B.

State Attorney General; Ashley Moody.

C.

State of Florida
TABLE OF CONTENTS
PAGE#

Jurisdiction....
...... 4

Constitutional and Statutory Provisi ons....

...A

Issue....
.... 7-9
Statement of Case..
...6
Reason for granting this writ...........
.... 7-9
Conclusion....
....8

2

TABLE OF AUTHORITIES
CASE
PAGE#
Graham v. State, 372 So.2d 1363 (Fla. 1979)...
..7
Jones v. Cosby, 137 F.3d 1279 (11th Cir. 1998)
6
Martinez v. Ryan, 132 S.Ct. 1309 (2012).........
:..8
Pennsylvania v. Finley, 481 U.S. 551 (1987) ....
6
CODES:
28 U.S.C. 1254(1).....
..,5
28 U.S.C. 2253....
...6, 7
28 U.S.C. 2254....
...6, 7
CONSTITUTIONU.S. Constitution 14* Amendment.
.... 5-8,9
U.S. Constitution 6th Amendment.......
...... 5

4

IN THE SUPREME CQTJRT OF THE UNITED ST A Tire
PETITION FOR WRIT OF CERTIORARI
Petitioner Sherwood L. Bostic respectfully prays a Writ of Certiorari to be issued to
review the Judgment of the Opinion of the 11“ Circuit Court of Appeals appearing at appendix
(D) which is unpublished.
JURISDICTION
The date which the U.S. Circuit Court of Appeal of the 11'» Circuit decided my case was
on

7-30-2020, and the ensuing timely reconsideration

Jurisdiction of this Honorable Court is invoked under U.S.C.

denial on 9-30-2020. Thus, the
1254(1).

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOT Vim
U.S. Constitution’s 14th Amendment Due Process Clause.
U.S. Constitution’s 6th Amendment’s rights to effective
U.S. Code 28 U.S.C. 2254, 2253(C)(2).

5

counsel.

STATEMENT OF CASF
Federal Habeas Corpus 2254;
On 4-24-2018 Petitioner filed his 2254 alleging the Denial of the Assistance
at his evidentiary hearing in violation of the U.S. Constitution’s Due P

of Counsel

rocess Clause, Equal

Protect Clause, and the right to Post Conviction Counsel.
Order of denial by District fm.rt.
Then on 4-6-2020, the U.S. District Judge Timothy J. Corrigan denied and dismissed
Petitioner’s Federal 2254 on the basis that there is No Constitutional Right to Counsel
Post Conviction proceedings, under Pennsylvania
Cosby, 137 F.3d 1279 (11th Cir. 1998) in

in State

v^inley, 481 U.S. 551 (1987); Jones

V.

case # 3:17-cv-595-J-32JBT, Middle District,

Jacksonville Florida Division.
The Appeal in the 11th Circuit Court;
On 7-30-2020 the 11th Circuit Court of Appeal denied Petitioner’s Certificate of
Appealability pursuant to 28 U.S.C. 2253(c)(2) as he failed to

make a substantial showing of the

denial of a Constitutional Right.
Motion for Reconsideration of Appeal.
Then on 9-30-2020, the 11® Circuit Court of Appeal denied petitioner’s motion for
Reconsideration of the Order dated 7-30-2020.

6

REASON FOR GRANTING THE

petition

QUESTION ONE
DID THE CIRCUIT COURT OF APPEAL ERR WHEN IT DENIED (COA)
STATUS ON THE POINT RAISED, THAT THE U.S. DISTRICT ABUSED ITS
DISCRETION BY NOT GRANTING HIS FEDERAL HABEAS CORPUS 28
U.S.C. 2254, UNDER SLACK V. MCDANTET. 529 U.S. 473 (2000)?”

ARGUMENT
The claim is premised on the prayer that this Court will entertain Certiorari review of the
fact the demal of the (COA) status by the 11th Circuit Court was a clear violation of the United
States Code 28 U.S.C. 2253(c)(2), as petitioner had a Violation of the Due Process Clause of the
U.S. Constitution’s 14th Amendment.
To start off with, petitioner asserts that when he made a prima facie case of Ineffective
Assistance of Trial Counsel in his state motion for Post Conviction relief under Fla. R.

Crim. P.

3.850 and hearing was granted, he should have been afforded Post Conviction Counsel. See
Graham v. State. 372 So.2d 1363 Fla. (1979).
Mr. Bostic avers that he is Raised this Claim in his Appeal of his post conviction motion
after hearing and then on his timely 28 U.S.C. 2254 petition. Then he further asserted this
Constitutional Violation on his Appeal to the 11* Circuit. Thus, exhaustion was had. In the ll*
Circuit Court, it held that Mr. Bostic failed to raise a constitutional violation as the law stands,
but Mr. Bostic hereby contends that this Court Should Review this claim as a Violation of Due

7

Process Clause of the U.S. Constitution’s 14th Amendment and expand the dictates of Martinez v.
Ryan, 132 S.Ct. 1309 (2012).
Furthermore, petitioner asserts that in Martinez this court held that if a defendant wholly
fails to raise a substantial claim of ineffective assistance of trial counsel in his first tier of post
conviction relief on the basis of the lack of counsel or ineffective of counsel. He can raise it for
the First Time in his Federal Habeas Corpus petition under the doctrine laid
the Basis of the Due Process Clause. Mr. Bostic again should have

out in Martinez on

this court to revisit is

determination that he should have a Constitutional Right to Counsel in his First Tier Post
Conviction Proceedings in State Court.
With that being said, on June 23rd, 2015, petitioner filed his legally sufficient motion for
post conviction relief in state court under Fla. R. Crim. P. 3.850, creating a cognizable claim.
The State Post Conviction Court ordered a hearing to litigate the matter. Then
preliminary hearing the petitioner Asked for the Appointment of Post Conviction Counsel

at a
and

the court demed such without elaboration, even without inquiring to petitioner’s Ability to Read,
Write, or Comprehend the Law, or how to elicit direct or cross-examination of testimony at the
hearing. Moreover, at the hearing, the Assistant State Attorney made

a direct-examination of

prior counsel Mr. Forrest, and petitioner was given the chance to cross-examine

prior, and

petitioner began testifying as he didn’t even know how to do a cross-examination of a witness.

8

Then the State Court even inquired if petitioner wanted to do a cross of prior counsel, and
Mr. Bostic said No. Being as such, when the court wholly failed to appoint counsel
petitioner, it did so without any meaningful inquiry into Mr. Bostic’s education,
procedure. Thus, Mr. Bostic asserts that this honorable court should
in Martinez to include, in this limited factual scenario, the right to

courtroom

expand the doctrine laid out
counsel in a post conviction

proceeding under the due process clause of the U.S. Constitution’s 14th Amendment.

OrtAM.

Sherwood L. Bostic, # 288203
Madison Correctional Institution
382 SW MCI Way
Madison, FL 32340-4430

9

to assist

